Audit Report



Return
    to the USDOJ/OIG Home Page




Compliance with Standards Governing Combined DNA Index System Activities     
California Department of Justice
Berkeley DNA Laboratory
Berkeley, California


GR-90-00-019


July 2000
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing the Combined DNA Index System (CODIS) activities at the California Department of Justice, Berkeley DNA Laboratory (Laboratory).  CODIS is a national information repository maintained by the FBI that permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law enforcement agencies.  The Laboratory received funds from two (1996 and 1998) U.S. Department of Justice grants, totaling $88,676 according to a laboratory official.
Our audit generally covered the period from the implementation of CODIS at the Laboratory in July 1994 through March 2000.  The objectives of the audit were to determine if the Laboratory:

complied with the FBI's Quality Assurance Standards (QAS) and National DNA Index System (NDIS) requirements, and
uploaded DNA profiles (a computerized record containing DNA characteristics used for identification) to NDIS that were complete, accurate, and in accordance with the QAS, NDIS requirements, and state legislation.

We found that the Laboratory generally complied with the QAS and NDIS requirements and, although the Laboratory generally uploaded complete and accurate DNA profiles in accordance with QAS, NDIS requirements, and state legislation, we noted the following instances of noncompliance.

The Laboratory uploaded four casework DNA profiles to NDIS that were not complete and accurate records.  The profiles did not contain available test results for all NDIS-required core loci and/or the test results were not accurately recorded in NDIS.
The Laboratory uploaded two inappropriate DNA profiles to NDIS.  These profiles matched the DNA profiles of crime victims.  The NDIS requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to the victim or to individuals other than the putative perpetrators.
The Laboratory uploaded a profile to the State DNA Index System (SDIS) for one offender who was not convicted of a crime that met the statutory requirements for inclusion in SDIS or NDIS.  An NDIS requirement prohibits the inclusion of profiles in NDIS that do not meet statutory requirements for inclusion in the state's SDIS.

The audit results are discussed in greater detail in the Findings and Recommendations and Other Reportable Matters sections of this report.  Our audit scope and methodology appear in Appendix I, background information is contained in Appendix II, and the audit criteria are discussed in Appendix III.  The history and status of DNA testing and CODIS use at the Laboratory appear in Appendix IV.